CERTIFICATE OF SERVICE
The undersigned certifies that, on this 2nd day of September 2020, in addition
to filing the accompanying Brief Amicus Curiae of Eagle Forum Education & Legal
Defense Fund in Support of Petitioner – together with a word-count certificate – via
the Court’s electronic filing system, one true and correct copy of the foregoing
documents was served by U.S. Priority Mail, postage pre-paid, with a PDF courtesy
copy served via electronic mail on the following counsel:
Toby Crouse
Office of the Attorney General
120 S.W. 10th Avenue
2nd Floor
Topeka, KS 66612
Tel: 785.368.6693
Email: toby.crouse@ag.ks.gov

Dale E. Ho
Director, Voting Rights Project
American Civil Liberties Union
125 Broad Street
New York, NY 10004
Tel: 212-549-2693
Email: dale.ho@aclu.org

The undersigned further certifies that, pursuant to this Court’s order dated
April 15, 2020, on this 30th day of July 2020, a single original of the accompanying
Brief Amicus Curiae of Eagle Forum Education & Legal Defense Fund in Support of
Petitioner – together with a word-count certificate and this certificate of service –
were served by Federal Express.
I declare under penalty of perjury that the foregoing is true and correct.
Executed September 2, 2020,
/s/ Lawrence J. Joseph
______________________________
Lawrence J. Joseph
Counsel for Amicus Curiae

